--- -- .---                         ----        --         - -     --                         --        - -
                                                                                                                        -
        ,
                                                                                                                            __LLC


                   +bL     S ~ ,                             NATIONAL SCIENCE FOUNDATION




              :@:
                                                              OFFICE OF INSPECTOR GENERAL
              z                                                 OFFICE OF INVESTIGATIONS
               4
                          r~\"                           CLOSEOUT MEMORANDUM

              Case Number: 1-05050021                                                                   Page 1 of 1



                     On 25 January 2005, OIG Office of Investigations (OIGIOI) received a referral from the Office of
                     Audit. The referral discussed a recent fraud uncovered by the Department of Education and the
                     Federal Bureau of Investigation in the New Orleans Public School (NOPS). The research
                     forwarded to OIGIOI indicated that the National Science Foundation (NSF) had approximately
                     $10 million in funding in the school district during the time of the alleged fraud scheme.

                     I researched NSF systems to determine if the award' discussed in the allegation was still active
                     and the nature of the funding included. The award has been closed since 1999. I also requested
                     and received the program file from archive and reviewed it in its entirety. The program file
                     contained an audit report2 performed by the Office of Inspector GeneralIOffice of Audit. The
                     report contained several instances where it appeared monies had been misappropriated. The
                     report was sent to NSF for resolution. NSF7sCost Analysis and Audit Resolution Branch
                     resolved the issue and sustained costs totaling approximately $300,000.

                     Accordingly, this case is closed.




                         footnote redacted
                     2
                         footnote redacted




          NSF OIG Form 2 (1 1/02)
